                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: I04080028                                                       11   .      Pageclofl



        OIG received a letter stating that a university professor', who supervised students/fellows who
        worked on an NSF grant2,allegedly "fined" students $100 for each week they were late in
        submitting grant related paperwork. The letter also stated that a fellowship recipient was      -
        terminated from his position on the grant and his tuition waiver was revoked.         ,

        Additional documents indicated that these allegations had been referred to the university3and a .
        university counsel had found that the student had failed to become a graduate student and, thus,
        was not eligible for the fellowship funding. The university had reviewed the termination issue
        and concluded that it was appropriate.

         We contacted the university counsel to determine if "fines" had been levied against students who
         had worked on the grant. The university counsel confirmed that the professor had threatened, in
         an e-mail, to "fine" fellows who were late in submitting grant related paperwork. However, the
         university had reviewed the matter and found that no fines were levied and professor was advised
         not to issue any type of fines.

         Accordingly, this case is closed.




                                                                                                            I1
I'
NSF OIG Form 2 (1 1/02)
